No,
In the Supreme Court of the United States

JEREMY COLLINS, PETITIONER
. v.
REBECCA PUTT, in her individual and official capacity, ED KLONOSKI, in his
official capacity as President of Charter Oak State College and CHARTER OAK
STATE COLLEGE
RESPONDENTS

PROOF OF SERVICE

In keeping with the Supreme Court's Order of 4/15/2020 I, Jeremy Collins, have
obtained the consent of counsel for Respondents, Mary Lenahan, to effectuate service
of my PETITION FOR A WRIT OF CERTIORARI and APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI electronically, i.e. via email, to her
email address: mary.lenahan@ct.gov, on December 19, 2020. I then served Counsel for
Respondents Mary Lenehan by email on December 23, 2020. All parties required to be
served under Rule 29 of the Supreme Court have thereby been served.

I declare under penalty of perjury that the foregoing is true and correct.
Exrfchted on December 23, 2020.

i
Jeremy Collins, Pro Se
61 Clark Street
Milford, CT 06460
collinsvputt@gmail. com
203-585-7282

RECEIVED
JAN - 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

